<html>
<title> - NATIVE HAWAIIAN RECOGNITION</title>
<body><pre>[Senate Hearing 108-27]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-27

    POLICY OF THE UNITED STATES REGARDING RELATIONSHIP WITH NATIVE 
 HAWAIIANS AND TO PROVIDE A PROCESS FOR THE RECOGNITION BY THE UNITED 
             STATES OF THE NATIVE HAWAIIAN GOVERNING ENTITY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 344

EXPRESSING THE POLICY OF THE UNITED STATES REGARDING THE UNITED STATES 
  RELATIONSHIP WITH NATIVE HAWAIIANS AND TO PROVIDE A PROCESS FOR THE 
   RECOGNITION BY THE UNITED STATES OF THE NATIVE HAWAIIAN GOVERNING 
                                 ENTITY

                               __________

                           FEBRUARY 25, 2003
                             WASHINGTON, DC



83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 344, text of..................................................     2
Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............    25
    Apoliona, Haunani, chairperson, Board of Trustees, Office of 
      Hawaiian Affairs...........................................    39
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................    24
    Case, Hon. Ed, U.S. Representative from Hawaii...............    27
    Faleomavaega, Hon. Eni, U.S. Delegate from American Samoa....    29
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Kane, Micah A., director, Department of Hawaiian Home Lands..    36
    Lingle, Linda, Governor, Hawaii..............................    32

                                Appendix

Prepared statements:
    Alaska Federation of Natives.................................    48
    Apoliona, Haunani............................................    51
    Berish, George L. (with attachment)..........................    68
    Burgess, H. William (with attachments).......................    72
    Carter, Dallas, student,.....................................   222
    Ingham, David (with attachments).............................   163
    Kane, Micah A................................................    45
    Kelly, Marion (with attachments).............................   177
    Kitsu, Susan H., president, Japanese American Citizens League   189
    Kuhea, Kealoha (with attachment).............................   194
    Lee Loy, Emmett E., attorney at law (with attachments).......   197
    Lingle, Linda................................................    46
    Rose, Charles, president, Association of Hawaiian Civic Clubs   212
Additional material submitted for the record:
    Letters......................................................   235

 
                      NATIVE HAWAIIAN RECOGNITION

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
485, Senate Russell Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senators Inouye, Akaka, Campbell, and Murkowski.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Committee on Indian Affairs meets this 
morning to receive testimony on S. 344, a bill expressing the 
policy of the United States regarding the United States 
relationship with Native Hawaiians and to provide a process for 
the recognition by the United States of the Native Hawaiian 
governing entity, and for other purposes.
    This measure, S. 344, was introduced by Senator Daniel 
Akaka on February 12, 2003, and was referred to this committee. 
It is my honor to serve as an original cosponsor of this 
measure.
    [Text of S. 344 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. Before I call upon members of this 
committee, I would like to remind those present here today, and 
those who are watching this hearing, of the historical events 
that have brought us here today. On January 17, 1893, the 
Government of Hawaii was overthrown with the assistance and 
direct involvement of the U.S. minister, who authorized U.S. 
Marine troops to assist in the overthrow of a stable 
government. Prior to the overthrow, that government enjoyed 
international recognition from countries around the world and 
carried on treaty relationships with Great Britain and France.
    One hundred years later, the U.S. Government approved a 
resolution now known as the ``Apology Resolution,'' in which 
the United States formally extended an apology to the Native 
Hawaiian people for America's role in the overthrow of the 
government.
    We are here this morning to consider a measure that would 
restore the government that represented the Native people of 
Hawaii to its rightful status among domestic sovereigns of the 
United States, in the same manner that other governments 
representing the Native peoples of the United States are 
recognized by the Federal Government.
    With that, may I call upon the very distinguished chairman 
of the committee, Senator Ben Nighthorse Campbell.
    Mr. Chairman.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Thank you, friend and vice chairman, Senator 
Inouye. I apologize this morning that I have a conflict and I 
am not going to be able to be here this morning. I will not 
take much time with my opening statement before I go on to say 
that I have great confidence and great faith in Senator 
Inouye's knowledge and expertise in the matters at hand.
    I wanted to also thank our distinguished witnesses for 
coming such a great distance. I see a number of leis in the 
audience, and I assume that all of those came from the great 
State of Hawaii. Leaving that island paradise to come back here 
to all this ice and snow must have been somewhat of a culture 
shock.
    But I am looking forward to reading your testimony. I am 
encouraged that Governor Lingle, who is here in the audience 
somewhere--I wanted to congratulate you on your recent 
election, Governor Lingle. I understand you are the first woman 
Governor of Hawaii, is that correct? Well, you have certainly 
been a pioneer in the tradition of so many great Hawaiians, in 
a wonderful State of great pioneers. I thank you for coming to 
testify, too.
    I would also say that Secretary Norton has offered her 
support, too, for this. She has made some very favorable 
comments recognizing Native Hawaiians. This committee has found 
time and again that the best way to improve the lives of Native 
peoples is to turn over to their control the resources 
dedicated to their benefit. I am certain that Governor Lingle 
will discover this to be true with Native Hawaiians, as we have 
with Native Americans.
    At the hearing on September 14, 2000, several committee 
members, including myself, suggested that we should move very 
slowly on this because it is an issue of great importance to 
Native Americans, and we have. With today's hearing, this 
committee will have had seven hearings and passed two bills on 
this matter. In addition, the House Resources Committee has 
held several hearings and passed two bills, one of which was 
passed by the complete House.
    So I think we probably have moved along very, very 
carefully, and I look forward to working with Senator Inouye, 
as I have always done. I wanted to just once again thank you 
very much for appearing here today.
    Thank you, Senator.
    Senator Inouye. I thank you very much, Mr. Chairman.
    Now, it is my great privilege to call upon the author of 
this measure, the Akaka bill, Senator Daniel Akaka.

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Senator Inouye. Mr. 
Chairman, I appreciate your convening this hearing.
    I want to say aloha to Governor Lingle, Trustee Haunani 
Apoliona, and Micah A. Kane, Chairman of Hawaiian Home Lands 
Commission. Thank you for joining us this morning.
    I also welcome the newest member of our delegation, 
Representative Ed Case. Your testimony is vitally important as 
representatives of the people of Hawaii.
    I also want to say mahalo to our brother from Samoa. He 
will be here to testify before us this morning, and has been 
very supportive of our efforts.
    I have repeatedly stated that Native Hawaiian issues are 
nonpartisan, because all of us in Hawaii recognize the need to 
address the conditions of Hawaii's indigenous peoples, Native 
Hawaiians. This is sometimes difficult for colleagues in 
Congress to understand, given the diversity and unique 
qualities of Hawaii's people.
    All of us respect and recognize the need to preserve the 
culture and traditions of Hawaii's indigenous peoples. Your 
appearance this morning, Governor Lingle, demonstrates the 
importance that all people in Hawaii place on the need to 
address the conditions of Native Hawaiians. I want to thank you 
for appearing before the committee this morning.
    As a Native Hawaiian, I firmly believe that it is important 
to understand the ways of our ancestors and honor our culture 
and traditions. In this day and age, it is also important to 
appreciate all cultures and all traditions. As indigenous 
peoples, we must be able to function effectively between 
indigenous and non-indigenous settings.
    The Federal policy of self-determination and self-
governance and the partnerships formed between the United 
States and Native governments is an appropriate avenue to 
accomplish this goal. For that reason, we have worked to draft 
legislation which would extend the Federal policy of self-
determination and self-governance to Native Hawaiians.
    The political relationship made possible by this policy is 
an important element in the process of reconciliation between 
the United States and the Native Hawaiian people. It is with 
the goal of reconciliation that I have pursued passage of this 
legislation and worked on all other issues of concern to Native 
Hawaiians.
    The legislation would also establish an office in the 
Department of the Interior to address Native Hawaiian issues 
and to continue the process of reconciliation pursuant to 
legislation that we worked on for 5 years already, and saw 
signed into law a decade ago. I am referring to Public Law 103-
150, commonly referred to as the Apology Resolution. The 
Apology Resolution was significant not only because it 
apologized to Native Hawaiians for the participation of U.S. 
agents in the overthrow of the Kingdom of Hawaii, but also 
because it commits the United States to a process of 
reconciliation.
    Reconciliation is an incremental dialog between Native 
Hawaiians and the United States. It is a structured process to 
address the many longstanding issues resulting from the 
overthrow of the Kingdom of Hawaii. In addition to continuing 
this process of reconciliation, the office would serve as a 
liaison between Native Hawaiians and the Federal Government, 
and would assist at facilitating the government to government 
relationship.
    The bill would also establish an interagency working group 
composed of Federal officials representing agencies with 
policies that impact Native Hawaiians.
    This bill is not race-based. Instead, this bill recognizes 
the legal and political relationship between the United States 
and the aboriginal indigenous peoples who occupy the lands now 
comprising the United States who were sovereigns, who existed 
prior to the formation of the United States--American Indians, 
Alaska Natives, and Native Hawaiians.
    This legislation would not adversely impact program funding 
for Indian Country, as appropriations for Native Hawaiian 
programs have been and will continue to be separate from 
programs addressing the needs of American Indians and Alaska 
Natives. The bill explicitly states that it does not authorize 
additional eligibility for programs administered by the Bureau 
of Indian Affairs.
    In addition, this bill would not authorize gaming under the 
Indian Gaming Regulatory Act.
    Finally, this bill is widely supported by the State of 
Hawaii, as evidenced by two resolutions unanimously passed by 
the Hawaii State legislature, and by the appearance of our 
Governor Lingle, who also supports this bill. This bill is also 
widely supported in Indian Country, as reflected in the 
resolutions of support repeatedly passed by the National 
Congress of American Indians and the Alaska Federation of 
Natives.
    Mr. Chairman, this bill was originally drafted based on 
input from five working groups consisting of representatives 
from Federal agencies, State agencies, the Native Hawaiian 
community, and the Native American community and constitutional 
scholars with expertise in Federal Indian law.
    We relied heavily on input from the Native Hawaiian 
community. Over 100 people were initially involved in the 
drafting of this legislation. Hearings were held in Hawaii and 
in Washington, DC during the 106th Congress. After considering 
testimony and input that we continue to receive, we modified 
the legislation during the 107th Congress. S. 344 is identical 
to legislation reported by this committee during the 107th 
Congress.
    Mr. Chairman, I will continue to consider all input and 
testimony received on this measure and to work with my 
colleagues to enact this measure, which is so vital to the 
people of Hawaii. I also want to thank the delegation for the 
kind of support that we have had as we worked together to pass 
this bill.
    Thank you very much, Mr. Chairman.
    Senator Inouye. I thank you very much, Senator Akaka.
    Pursuant to the tradition of the committee and the 
Congress, we will first call upon congressional witnesses. 
Before I do, without objection the statement of Congressman 
Neil Abercrombie will be made part of the record.
    [Referenced document appears in appendix.]
    Senator Inouye. Mr. Chairman.
    The Chairman. Mr. Chairman, I am going to apologize. I am 
going to have to excuse myself to go to another hearing. My 
apologies, too, to Congressman Case that I will not be able to 
hear his testimony, but I will certainly review it.
    I just wanted to tell you that I think that that pretty 
lady that just came up and gave me these wonderful flowers 
probably sealed my vote on this issue. [Laughter.]
    Senator Inouye. It is now my great pleasure and privilege 
to call upon the new member of the Hawaii congressional 
delegation, Congressman Ed Case.
    Representative Case.

   STATEMENT OF HON. ED CASE, U.S. REPRESENTATIVE FROM HAWAII

    Mr. Case. Mr. Chairman and members of the Senate Committee 
on Indian Affairs, good morning and aloha.
    Mahalo, or thank you very much, for holding today's hearing 
on S. 344, legislation introduced by both of Hawaii's Senators 
to affirm the longstanding political relationship between 
Native Hawaiians, the indigenous peoples of our Hawaii, and our 
Federal Government, and to extend to Native Hawaiians the time-
honored Federal policy of self-determination provided other 
indigenous peoples under U.S. jurisdiction. Companion 
legislation, H.R. 665, has been introduced in the House by me 
and the fourth colleague from Hawaii, Representative 
Abercrombie. I know that all of us join together in welcoming 
our Governor, our Office of Hawaiian Affairs trustees, and all 
of our ohana here in Hawaii to our Nation's capital.
    Mr. Chairman, allow me to be very direct. This is the most 
crucial piece of Hawaii legislation to come before Congress 
since our Statehood bill. The stakes are nothing more or less 
than the survival and prosperity not only of our indigenous 
Native Hawaiian people and culture, but of the very soul of 
Hawaii as we know it and love it.
    You will hear passionate testimony today from my colleague 
and friend, Haunani Apoliona, reciting the often difficult 
history of the relationship between our country and the Native 
Hawaiian people, and asking for fairness, justice and further 
healing. For them and for me, that history and call alone 
provide the basis for Federal recognition.
    But I speak to you today on behalf of all of Hawaii's 
people, and all those worldwide for whom Hawaii, in all of her 
forms, be they natural, environmental, cultural, social, or 
spiritual, is a truly special and unique place. I say to you 
that that Hawaii--the Hawaii that is the indigenous home of all 
Native Hawaiians, that my own ancestors and many other non-
Native Hawaiians committed themselves to since recorded Western 
discovery in 1778, and that so many throughout the world 
continue to view as a beacon for what can be in our world--that 
Hawaii has never been so at risk as it is today.
    It is at risk because it is a creation of and rests upon 
the foundation of our Native Hawaiian people and culture, and 
their survival and prosperity are at risk. As they go, so goes 
Hawaii as we know it. And Hawaii which is not Hawaiian is not a 
Hawaii I can bear to accept.
    So our goal is not only reaffirming the longstanding 
historical and legal relationship between Native Hawaiians and 
the United States, not only delivering fairness and justice to 
Native Hawaiians, but ensuring the very survival and prosperity 
of our Native Hawaiian people and culture and, through them, 
Hawaii itself. This is a truly common goal, evidenced before 
you today not only by a united congressional delegation, but by 
the testimony you will hear, which spans ethnic, partisan and 
other distinctions.
    The goal of assisting Native Hawaiians is not new to our 
Federal Government. Beyond a longstanding relationship that was 
reaffirmed when Hawaii became a territory in 1900 and a State 
in 1959, over 160 Federal statutes have enacted programs to 
address the conditions of Native Hawaiians in areas such as 
Hawaiian home lands, health, education and economic 
development. These have been matched by State and quasi-
autonomous entities such as Trustee Apoliona's Office of 
Hawaiian Affairs, and private entities like the Kamehameha 
Schools. They have borne fruit with a renewed focus on unique 
Native Hawaiian needs, and a true renaissance of Native 
Hawaiian culture.
    Federal recognition is the means by which these 
indispensable efforts can be carried forward into the next 
generation of Native Hawaiian governance. Federal recognition 
is also the time-honored means of memorializing our 
government's relationship with the indigenous peoples of the 
contiguous 48 States and Alaska. There, either government-to-
government treaties or the Bureau of Indian Affairs recognition 
process or legislative recognition from this Congress have 
extended self-determination and affirmed relationships. 
Although the difference between those peoples and Native 
Hawaiians is exclusively geographic, such means have simply not 
been either available or exercised in the case of Native 
Hawaiians.
    Nor is the concept of extending Federal recognition to 
Native Hawaiians a new one. The enactment into law in 1993 of 
the Apology Resolution, Public Law 103-150, expressed a 
national commitment to reconciliation efforts between Native 
Hawaiians and the Federal Government.
    Subsequent efforts through the Departments of Justice and 
Interior, as well as the White House Initiative on Asian 
Americans and Pacific Islanders, established by Executive 
orders on a bipartisan basis by both Presidents Clinton and 
Bush, yielded Federal recognition legislation and the inclusion 
of Native Hawaiians in Federal programs and services as top 
priorities.
    For all of these reasons, the time has clearly come for all 
of us to move resolutely into this relationship in order to 
resolve longstanding issues and ensure the survival and 
prosperity of the Native Hawaiian people and culture, and for 
all of us of their special home.
    So in that spirit, for all of us in Hawaii, Mr. Chair and 
committee members, I express my heartfelt appreciation for your 
understanding and leadership, and urge the passage of S. 344.
    Mahalo and Aloha.
    Senator Inouye. Thank you very much, Congressman Case. We 
look forward to working with you, with the hope that someday 
soon we will achieve the goal that we have been seeking for 
many years now.
    Mr. Case. Thank you very much.
    Senator Inouye. Senator Akaka, do you have any questions?
    Senator Akaka. No.
    Senator Inouye. I thank you very much, sir.
    Mr. Case. Thank you.
    Senator Inouye. And now it is my pleasure to introduce and 
to receive the testimony of the congressman from Alaska--no, 
from Samoa, the Honorable Eni Faleomavaega.
    [Laughter.]
    Senator Inouye. I am sorry, sir. The snow just reminded me 
of Alaska. [Laughter.]

STATEMENT OF HON. ENI FALEOMAVAEGA, U.S. DELEGATE FROM AMERICAN 
                             SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I am afraid 
Alaska is a little too big for me. I will settle for my little 
islands in the South Pacific.
    Mr. Chairman and distinguished members of the Senate 
Committee on Indian Affairs, I want to thank you for the 
opportunity to testify in support of this proposed bill, which 
I believe will establish a firm foundation and a more defined 
relationship between the Native Hawaiian community and the 
United States.
    I want to say personally also the chairman of this 
important committee to thank him for his sensitivity and the 
outstanding leadership that he has demonstrated over the years 
whenever the question of rights of indigenous peoples of our 
Nation are in question. Over the years, it was my privilege to 
work closely with Chairman Campbell when he was a member of the 
House Interior Committee, before becoming a U.S. Senator.
    I can also sense, Mr. Chairman, that Senator Campbell as a 
Native American himself can certainly appreciate the anger, the 
frustrations, and tribulations that the Native Hawaiian people 
have had to endure for over 100 years now, not only having lost 
their sense of identity as a sovereign people, but not having 
to organize themselves in such a way that this unique 
relationship that they now seek is in accordance with the 
Constitution and Federal laws of the United States.
    I would be remiss if I did not also express my deepest 
appreciation to you, Mr. Chairman, the senior Senator from the 
State of Hawaii, Senator Daniel Inouye, who is currently the 
vice chairman of this committee, and my good friend and 
colleague, Senator Daniel Akaka, for your both outstanding 
service and leadership that you have demonstrated, not only to 
the people of Hawaii who you represent, but especially for your 
sincere efforts to assist the Native Hawaiian people.
    I commend also my colleague and good friend, Congressman 
Neil Abercrombie, for his tireless efforts in addressing this 
important issue for the past several years. I also commend a 
new member of the Hawaii congressional delegation, Congressman 
Ed Case, who I knew when he served as a staffer to the late 
Senator Spark Matsunaga.
    Mr. Chairman, as you are aware, the bill that is now before 
you and the members of the committee is not a new subject 
matter. However, members of both chambers of Congress raised 
certain issues that I believe the Hawaii congressional 
delegation has tried earnestly to resolve. One issue was the 
question of whether or not currently Federal funding for 
decrease in financial needs of Native Hawaiians were to be 
included in the funds specifically allocated for American 
Indians and Native Alaskans. I believe, Mr. Chairman, that this 
important issue was addressed quite adequately by the Hawaii 
congressional delegation in the previous Congress, given the 
fact that proceeds that have been received for the benefit of 
Native Hawaiians were derived from ceded lands that were under 
both the Federal Government and the State of Hawaii.
    It should also be noted that whatever additional Federal 
assistance programs that were provided for Native Hawaiians 
were never taken from the American Indian and Native Alaskan 
funds.
    Mr. Chairman, there are also those who make the argument 
that American Indians are specifically cited under the 
provisions of the Constitution as a sovereign entity, and that 
Congress is directed to conduct commerce and trade with the 
``Indians,'' but no where in the Constitution does one define 
or find Native Hawaiians as being inclusive in the definition 
of ``Indian.'' To those who make that argument, at this point I 
would like to say that neither was there any mention in the 
Constitution of Native Alaskans. By its mandate from the 
Constitution, the Congress of the United States clearly passed 
Federal legislation to recognize Native Alaskans also as a 
sovereign people.
    Some have argued that if Congress recognizes Native 
Hawaiians in the same way American Indians and Native Alaskans 
are categorized as a sovereign people under the U.S. 
Constitution, that this would violate again the equal 
protection clause of the Constitution. This is clearly not 
true, Mr. Chairman, since Congress by its mandate from the 
Constitution may establish rules and regulations that provide 
for Native Hawaiians as a sovereign people, and may also assist 
Native Hawaiians on how to organize themselves as a self-
governing political entity in the same manner in which American 
Indians and Native Alaskan tribes are recognized as sovereign 
nations within the context of a government to government 
relationship with both States and the U.S. Government.
    An example that comes to mind is the organization and 
political structure of the Navajo Nation, which is composed of 
some 250,000 Navajos. Considered the most populous of all 
American Indian tribes, ownership of lands and minerals by the 
Navajo encompass four States, including Utah, Arizona, 
Colorado, and New Mexico. I do not mean to suggest that the 
Native Hawaiians adopt the same kind of government structure 
like the Navajo Nation. But out of some 1.2 million who claim 
residency in Hawaii, more than 300,000 are Native Hawaiians and 
tens of thousand more Native Hawaiians reside outside of the 
State of Hawaii.
    This gives me hope and confidence, Mr. Chairman, that 
Native Hawaiians should be given the same opportunity to 
organize themselves as a political entity, and section six of 
the proposed bill gives a step by step approach on how this 
governing entity is to establish itself to be duly recognized 
by the Federal Government.
    Mr. Chairman, I also fully support the provisions of 
sections four and five of S. 344, which seek to establish an 
office within the Department of the Interior and a Federal 
interagency group that periodically will meet to discuss issues 
that address the need of Native Hawaiians and that of the 
Federal Government. I believe it is wise and prudent that 
Native Hawaiian issues need not be included as a subdivision of 
the Bureau of Indian Affairs, given the fact that the BIA is 
tremendously understaffed and overloaded with responsibility of 
trying to administer Federal programs that provide for some 595 
federally recognized American Indian Nations.
    Mr. Chairman, I submit that the vast majority of our fellow 
Americans today are not at all familiar with the history of the 
State of Hawaii, and how these islands ended up being annexed 
as a territory of the United States, and over 100 years later 
now the 50th State of the Union.
    People often think that Californians, Texans, and 
Washingtonians are the same as Hawaiians. The situation becomes 
worse, Mr. Chairman, when visitors from the continental United 
States look upon Native Hawaiians only to perceive them as a 
bunch of Natives dancing with hula skirts and still live in 
grass shacks and play their ukuleles without thought of having 
to work and earn a living to support their families.
    On the contrary, Mr. Chairman, nothing could be further 
from the truth. Native Hawaiian people are one of the most 
educated among all the residents of Hawaii. Native Hawaiians 
have excelled in just about every major profession known in any 
community. Native Hawaiians are trained in the fields of 
medicine, in law, in engineering and physics. There are 
chemists, even pharmacists. Yes, Native Hawaiians are also 
admirals and generals in the U.S. armed forces. Mr. Chairman, 
many Native Hawaiians also fought and died in defense of our 
Nation.
    Mr. Chairman, as members of the polynesian race, the Native 
Hawaiian people are exceedingly proud of their cultural 
heritage. Their cultural roots extend as far south as their 
Maori cousins in New Zealand, and to the other islands of the 
Pacific settled by their cousins the Rapa Nui or Easter 
Islanders, the Tahitians, the Rorotongas, the Samoans and the 
Tongans. For many years before the establishment of the 
Hawaiian Kingdom under the rule of Kamehameha the Great, a 
Hawaiian prophet by the name of Keaulumoku prophesied the day 
would come when the social order and religious rites of the 
Hawaiian people would be completely changed due to their being 
exposed to outside influences from people who come from foreign 
lands.
    Mr. Chairman, that day has come, and I believe the 
provisions of the proposed legislation clearly identifies the 
historical events governing the status of Native Hawaiians. It 
is now up to Congress to make a formal statement as a matter of 
Federal policy that Native Hawaiians should be officially 
declared not only as a trust responsibility of the U.S. 
Congress, but there should also be a distinct historical. 
Although there are distinct historical and cultural differences 
existing among American Indians, Native Alaskans and Native 
Hawaiians, there is a commonality among all three groups, Mr. 
Chairman, and that is they are all indigenous Native 
inhabitants of what we now consider the United States.
    Given this commonality, Mr. Chairman, I also submit that it 
is now time for the U.S. Congress to officially recognize 
Native Hawaiians as a sovereign people with the same rights and 
privileges as American Indians and Native Alaskans.
    I thank the Chairman for allowing me to testify, and I 
would gladly respond to any questions.
    Senator Inouye. I thank you very much, Congressman 
Faleomavaega.
    May I note the presence of our new Senator from the State 
of Alaska, Lisa Murkowski. We are pleased to have you here. We 
miss your father, but I think you are a better replacement. 
[Laughter.]
    Senator Inouye. Now it is my pleasure to call upon our new 
Governor from the State of Hawaii. The last monarch of Hawaii 
was a lady, Queen Lili'uokalani. Our Governor today is a lady, 
Linda Lingle, Governor of the State of Hawaii.
    Governor Lingle, welcome, ma'am.

   STATEMENT OF HON. LINDA LINGLE, GOVERNOR, STATE OF HAWAII 
ACCOMPANIED BY MICAH A. KANE, DIRECTOR, DEPARTMENT OF HAWAIIAN 
                           HOME LANDS

    Ms. Lingle. Thank you very much. Senator Inouye, Senator 
Akaka, Senator Murkowski, I want to thank you for inviting me 
to appear before you today at this very important hearing.
    For the record, I am Linda Lingle, Governor of the great 
State of Hawaii, and it really is an honor for me to be here.
    I came to Washington, DC to accomplish two things. One is 
to testify before you on the passage of Native Hawaiian Federal 
recognition; and the second is to convince people in the 
Administration that this was something good for all the people 
in our State.
    Every reporter who has interviewed me on this subject today 
and previous to today has asked me, why did I come in person to 
testify. I want you to know this is the very first time I have 
ever testified before a committee of Congress. I was a mayor 
for 8 years, a council member for 10, and there were many, many 
Federal issues that came up that affected my community, but I 
never felt compelled before to come and speak in person from my 
heart about why a bill before Congress was so important.
    First, I want to thank Senators Inouye and Akaka for their 
perseverance on this issue. I am a johnny-come-lately to this. 
If I am able in any way to help, it is going to be an honor, 
but it should be pointed out that they have taken it through 
the very difficult times when no one understood what this issue 
was, why it was important, or the significance to America. It 
is sort of like they moved the ball down the field methodically 
play after play, and we can see the goal line, and now 
collectively we have got to get this over that goal line.
    We recognize that there are always differences of opinion 
in our approaches to many of the issues that we face, but all 
of us from Hawaii recognize the importance of working together 
in a bipartisan way to achieve the great issues that are 
important to our State. I want everyone in Congress to 
understand that the people of Hawaii are united on this issue. 
In fact, Federal recognition for Native Hawaiians is a plank in 
the Republican Party platform and in the Democratic Party 
platform. I do not know many issues that appear in quite the 
same way in both party platforms.
    So we are united in asking Congress to pass the Akaka bill 
into law, thereby reaffirming the political relationship 
between the United States and the indigenous people of Hawaii.
    The people of Hawaii respectfully submit that this is a 
matter of simple justice. I have heard the arguments against 
the bill, as have you, or against the concept of Federal 
recognition. I have heard some people say that it is race-based 
and that it is favoring one group over another. In fact, it is 
just the opposite. It is ending decades of discrimination 
against one group of indigenous people. Alaska Natives, 
American Indians, who we admire and we respect and who are 
indigenous to our country, have recognition. It is only Native 
Hawaiians, they are the only indigenous people who have not 
been so recognized. So it is the opposite of discriminating 
against others. It is ending discrimination against the 
indigenous people of Hawaii.
    I have heard the claim that it would bring gambling. There 
is a concern about gambling. All of us from Hawaii know that 
this is not an issue. Senator Inouye, Senator Akaka, and myself 
have always been against gambling in Hawaii. The Native 
Hawaiians have never enunciated a desire for legalized 
gambling. That is true today and it has always been true, and 
it would be true with the enactment of this bill.
    Finally, I have heard that this bill would be divisive 
somehow. It is the opposite of that. Again, justice cannot be 
divisive, and that is all this is, it would bring justice to an 
issue and to a people and to a State.
    I have spent the last two days talking with the Attorney 
General John Ashcroft; talking with Gale Norton, the Secretary 
of the Department of the Interior and people on her staff; 
talking with officials in the White House about why this is 
important. I want to stress again, I feel that Senators Akaka 
and Inouye have worked for so many years on this issue that 
they deserve the credit for bringing this to this point. If, 
through bipartisanship, we can play a small role and get people 
to see things in a way they have not before or to see things 
for the first time, then it is just an honor to play a small 
part.
    When we leave Washington, not only will we be a lot warmer, 
but we will have to get very focused on the follow-up that will 
be necessary to see this through to completion. I feel in the 
past two days myself, my chief of staff Bob Awana, Micah Kane, 
our Director of the Department of Hawaiian Home Lands and 
others in our party--I feel we have laid a good foundation, a 
foundation of knowledge, and I hope of opening some doors, but 
I think it is only the foundation. Whether we are to achieve 
our final goal will be determined by the follow-up that we do 
when we leave Washington, DC I want you to know that although 
we are here in person today to speak and we have been speaking 
to others for the last 2 days, we feel this is just the 
beginning of our role, that we need to follow this every day, 
all day, until we can bring this to completion.
    I want to thank the Senators who are here this morning, and 
I want to thank their staffs because we all know that the 
staffs play a key role. They do for me as a Governor, and when 
I am dealing with your offices the staffs have been tremendous 
to us, and I appreciate their help.
    I look forward to continuing to work with you, Senator, on 
this matter, and I am more optimistic than I was before I came 
a few days ago. I am hopeful, but not over-confident, because I 
know that there is a lot of work ahead, and I will look forward 
to working with you, trustees from the Office of Hawaiian 
Affairs, and the people at home, to make sure that this matter 
of justice, this significant, but pure and simple matter of 
fairness gets resolved to the benefit of the Native Hawaiians 
and all the people of Hawaii, and to the integrity of the 
United States of America.
    Thank you very much.
    [Prepared statement of Ms. Lingle appears in appendix.]
    Senator Inouye. Thank you very much, Governor Lingle. We 
are most grateful for your very gracious statement. It will be 
very helpful.
    Do you have any statement to make, Mr. Kane?
    Mr. Kane. No; not at this time, but I will save my comments 
for my testimony.
    Senator Inouye. Then Governor Lingle, may I ask one 
question?
    Ms. Lingle. Yes, sir.
    Senator Inouye. In your statement, you alluded to spending 
2 days in this Nation's Capital meeting with officials. If it 
is possible, can you provide us with some report on the outcome 
of your meetings with the Attorney General and with the 
Secretary of the Interior? I am certain all of us here would be 
most happy to learn your achievements. We have heard some great 
things.
    Ms. Lingle. I believe ``achievement'' may be overstating 
the case, Senator, but I do think we opened some doors and laid 
some foundation. I was quite surprised that the Attorney 
General really was not very aware of this issue, had not 
established a position. He took a lot of notes during our 
conversation. There were about eight of us in on that meeting 
just from our side, and then a couple of his staff members. He 
asked questions, he took notes, and he pledged a willingness to 
discuss this issue and that he would look into it further. I 
think that summarizes what his feeling was about it.
    The Department of the Interior, we talked on two levels, 
one in brief conversation with the Secretary. I believe she has 
a number of issues, and I believe we can address them. Some 
specific questions that she was asking, I would say generally 
my impression is that she would like to see more definitiveness 
in certain aspects of what this bill would do. Her staff I 
would say is very helpful and cooperative, and working through 
the various issues with us. So I felt a lot of support coming 
from Interior, but still some questions remaining.
    Senator Inouye. I thank you very much, Governor.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Governor Lingle, mahalo for your statement and for your 
support, and thank you for bringing your staff here. I am so 
happy as I look out and see all the leis, and not only leis, 
but the faces of Hawaii here with you. I want to say mahalo for 
bringing Micah Kane with you, and also Darryl Yagodich. I also 
want to say that the relationships we have had in days past 
have been good. They certainly represent you and the State of 
Hawaii very well.
    I commend you for appointing such a diverse cabinet, which 
features many Native Hawaiians. I continue to have discussions 
with my colleagues about the diversity of the people of Hawaii. 
I have shared with them the overwhelming support among all of 
Hawaii's citizens for efforts to preserve Native Hawaiian 
traditions and culture.
    So my simple question to you is, would you agree that the 
people of Hawaii have a special respect for Native Hawaiian 
culture?
    Ms. Lingle. I certainly would, Senator, and I would go a 
little further than that. Not only do all people in Hawaii 
respect Native Hawaiian culture, it is the foundation of our 
State. It is what makes Hawaii, Hawaii. Whether you were born 
and raised in Hawaii or you came from another country or 
another State, it is very quickly that you recognize that we 
are in a very unique place, made unique because of the Native 
Hawaiian people and their culture, and their willingness to 
share it with the rest of us. So I would agree with you that 
all people of Hawaii respect and admire and our thankful for 
the Native Hawaiian culture.
    Senator Akaka. I also want to, in mentioning names, commend 
you for also bringing your great staff, Bob Awana, your chief 
of staff, and also Randy Roth and also the LG's counsel, Robert 
Piper, here.
    The Hawaii State legislature, as I mentioned in my 
testimony, has passed two current resolutions in support of 
Federal recognition for Native Hawaiians. I am just asking what 
you know about this, has there ever been any change in the 
State legislature's position?
    Ms. Lingle. Senator, I believe that the legislature will 
again pass unanimously a resolution in support of this bill. I 
expect anytime this issue arises, it will be one of the only 
issues that the legislature perhaps can support in a unanimous 
fashion.
    If I could request just a moment of indulgence to mention a 
couple of other people who are with me, Senator. Would that be 
all right?
    Senator Akaka. Absolutely.
    Ms. Lingle. Because we really have applied a team concept 
to this, each one of us doing what we do best. I would like to 
recognize my Senior Adviser for Communications Lenny Klompus, 
who has done a good job here at the national level, helping me 
to get this issue out before the public. I have been 
interviewed by Dave Broder of the Washington Post. I am in New 
York the rest of this week talking with other national media, 
talking about this and other issues as it relates to Hawaii.
    I also want to mention a volunteer who is with me today, 
but who has been significant in our ability to move here in 
Washington. She is the National Committeewoman from the State 
of Hawaii for the Republican Party, Miriam Hellreich. She has 
been a tremendous asset to us. She is here in the audience and 
cares very deeply about this bill as well. So again, we want to 
apply a team concept within my office, as well as between my 
office, the Office of Hawaiian Affairs, and of course your own 
offices here.
    Senator Akaka. Thank you for mentioning them also. Let me 
further mention that we have here with us Tony Sang, who has 
joined you as the chairman of the State Council of Hawaiian 
Homestead Association, and Robin Danner, who is the vice 
chairperson. We are delighted to have you.
    Senator Inouye. Thank you, Senator Akaka, and thank you 
once again, Governor Lingle.
    Before I ask for the next witness, we have questions that 
have been submitted by the Chairman of the committee. If I may, 
I would like to submit them to you for your response.
    Ms. Lingle. Yes.
    Senator Inouye. Thank you very much.
    Thank you very much, Mr. Kane. We also have a question for 
you, if you will respond to that.
    Mr. Kane. Absolutely.
    Senator Inouye. Before I call upon the next witness----
    Mr. Kane. I am sorry, Senator. I apologize if I did not 
communicate it, but I would like to testify, if I may.
    Senator Inouye. Please.
    Mr. Kane. Thank you.

STATEMENT OF MICAH KANE, DIRECTOR, DEPARTMENT OF HAWAIIAN HOME 
                     LANDS, STATE OF HAWAII

    Mr. Kane. Hello, Senator Inouye, Senator Akaka, and other 
committee members that may be viewing this hearing today.
    My name is Micah Kane. I am the Director of the State 
Department of Hawaiian Home Lands, here today to show support 
of this measure.
    The Department of Hawaiian Home Lands was established by an 
act of Congress. In the early 1900's, Congress recognized the 
hurt of our culture and the near-extinction of our culture, and 
set aside over 200,000 acres for the purpose of rehabilitating 
Native Hawaiians through homeownership and land stewardship. We 
know this act as the Hawaiian Homes Commission Act of 1920. I 
am managed by a nine-member commission of which I serve as the 
chairman. I am appointed by the Governor, serve in her cabinet, 
and am confirmed by the State legislature.
    While that relationship state-to-state exists, the act 
requires oversight by the Department of the Interior, so I have 
a direct relationship with the Department of the Interior. This 
relationship government-to-government has been in place for 
over 80 years, and it is stronger now than it ever has been.
    Today, more than 7,000 families reside on our lands, over 
22,000 people, Native Hawaiians, throughout 30 communities and 
associations throughout our islands and our counties--
communities that have been established, that have democrat 
elections, that come before our Commission to represent their 
communities.
    Senator Akaka, I want to thank you for recognizing two very 
important people to my Department and to our Commission, and 
that is our State chairman for our Statewide association, Uncle 
Tony Sang and his Vice Chairman, Robin Danner. I think it is an 
incredible statement for them to come this distance and it 
shows the importance of this issue to our community.
    As our Governor has so eloquently stated, the support of 
this issue is broad and it is deep. She mentioned the 
recognition of Native Hawaiians and the support of recognition 
in both of our party platforms, as well as the recognition of 
Native Hawaiians in our national platforms; unanimous support 
by our State legislature; and our entire congressional 
delegation; but also most importantly for me, our homestead 
communities.
    Many people, at least over my short tenure in trying to get 
involved in this dialog, have spoken very passionately about 
the social impact that our department has and other 
departments, as well as the economic impact from a program 
standpoint on the Federal funding that has occurred over the 
years. I do not want to take away the importance of that, but 
if we set aside that issue, very few people I think recognize 
the indirect impact recognition would have on our economic 
situation back home.
    The Akaka bill would begin to eliminate the legal problems 
and uncertainties that have adversely affected our economies, 
like a silent but pretty effective means of shutting down some 
economic arenas for us. These are issues related to property 
title, ceded lands, and rights to natural resources like water 
and minerals. This process would begin the healing and defining 
of these issues.
    Risk of doing nothing puts us back into the courts, puts 
our department in the position of dedicating over thousands of 
hours of manpower hours and millions of taxpayer dollars toward 
defending Native Hawaiian rights and letting the courts define 
what those rights should be. By moving this bill forward, it 
would have, I believe, a significant impact on allowing our 
State to move forward.
    Last, I would like to touch on the effort today on behalf 
of this delegation. As the Governor has said, we are a johnny-
come-lately. However, I believe past efforts have been defined 
by and framed by challenges to our constitution. I think they 
have been improperly framed by plaintiffs who have challenged 
our department and the constitutionality of our department. I 
believe our effort here today has given us an opportunity to 
step back and re-frame the issue as an issue of justice, as an 
issue of equality, as an issue of States' rights, and simply 
doing what is right.
    All the people of Hawaii are not afraid of this process. We 
are not fearful of this process. We embrace it. It is a great 
time for all the people of Hawaii. It is clearly a great time 
for all the Native Hawaiians. More Hawaiians serve in our 
Governor's cabinet than at any time in the history of our 
State. I think it shows the resilience of the Hawaiian people, 
and it shows that programs like the Department of Hawaiian Home 
Lands are working, by our presence here today.
    I would like to thank Sheriff Holiona for the support she 
has given me during this process, as well as all of the other 
Native Hawaiian leaders during this transition period. I would 
like to thank our Governor for her support.
    On behalf of my department and our constituents, again I 
want to express our support for this measure and the 
opportunity to testify before you today.
    Thank you.
    [Prepared statement of Mr. Kane appears in appendix.]
    Senator Inouye. Mr. Kane, I thank you very much, not just 
for the testimony, but your mere presence here at this 
gathering, because your presence is symbolically very 
important. In 1920, when the Hawaiian Homes Commission Act was 
enacted into law, it was a most definitive manner in which the 
United States demonstrated that there was a special 
relationship between the government of the United States and 
the Native people of Hawaii.
    When Hawaii became a State in 1959, one of the provisions 
in the Admissions Act was to transfer authority for the home 
lands to the State. However, they left one clause in there, 
that says if the State of Hawaii should make changes that would 
affect the trust or the beneficiaries of the trust, it would be 
subject to approval by the Congress. That indicates to me that 
the U.S. Government is still involved in this special 
relationship. So your presence here is extremely important.
    I just have one question.
    Mr. Kane. Yes, sir.
    Senator Inouye. If this measure is not considered and 
passed, what do you think may be the outcome?
    Mr. Kane. In the short term, it challenges our department 
daily. There is not a day that goes by that I am not spending 
time defending our right to exist. We spend countless manpower 
hours trying to do what is right, to continue what the Act set 
us out to do. So in the short term, it is a tremendous amount 
of time and a tremendous amount of taxpayer money being 
dedicated to something that we believe should be done already. 
In the long run, it challenges the existence of our department. 
I cannot imagine being in the position I am in today, wondering 
what the 22,000 constituents I represent would do being removed 
from the land. I think it is very deep and far-reaching.
    Senator Inouye. In other words, we have only one option--
success.
    Mr. Kane. Yes, sir.
    Senator Inouye. Governor Lingle, once again may I thank you 
very much for your gracious statement, and may I assure you and 
pledge to you the complete support and cooperation of the 
Hawaii congressional delegation.
    Ms. Lingle. Thank you very much, Senator.
    Senator Inouye. Thank you very much.
    Before I call upon the final witness, may I note that we 
have in the audience four Alaskan Native leaders--the President 
of the Alaska Federation of Natives, Ms. Julie Kitka, is here; 
the President of the Arctic Slope Native Corporation, Oliver 
Levitt is here; the President and CEO of Sealaska Native 
Corporation, Chris McNeil is here; and one of the great Alaska 
Native Leaders, Willie Hensley is here. I, on behalf of the 
committee, thank all of you for your presence and your support 
of this measure.
    Now, I would like to call upon the chairperson of the 
constitutionally-recognized entity that represents Native 
Hawaiians in Hawaii, Haunani Apoliona.
    Ms. Apoliona. Aloha.
    Senator Inouye. Thank you very, very much. Madam Chair, 
before you proceed, I know there are other trustees of the 
Office of Hawaiian Affairs here. May I just recognize them? 
Trustee Colette Machado, Trustee Dante Carpenter, Trustee 
Oswald Stender, Trustee John Waihee, IV, and Trustee Boyd 
Mossman. Unfortunately Trustee Rowena Akana cannot be with us. 
She is in Washington, but she had a matter of great importance 
to attend to. We have former Hawaii Supreme Court Justice Klein 
here with us, and we have Tony Sang, the president of the State 
Council of Hawaiian Homestead Associations, and Charles Rose, 
president of the Hawaiian Civic Clubs.
    Now, it is my great pleasure and privilege to call upon the 
Honorable Haunani Apoliona.

STATEMENT OF HAUNANI APOLIONA, CHAIR, BOARD OF TRUSTEES, OFFICE 
                      OF HAWAIIAN AFFAIRS

    Na `Oiwi `Olino

    E o e na `oiwi `olino `ea
    Na pulapula a Haloa ea
    Mai Hawai`i a Ni`ihua `ea
    A puni ke ao malamalama `ea e

    Ku e au i ka hewa, ku`e!
    Ku au i ka pono, ku!
    Ku`e au i ka hewa, ku`e!
    Ku au i ka pono, ku!

    Answer, O natives, those who seek knowledge
    The descendants of Haloa
    From Hawai`i island in the east to Ni`ihau in the west
    And around this brilliant world

    I resist injustice, resist!
    I stand for righteousness, stand!
    I resist injustice, resist!
    I stand for righteousness, stand!

    Ms. Apoliona. Mahalo, Senator Inouye and Senator Akaka, 
members of the U.S. Senate Committee on Indian Affairs, members 
and staff, aloha.
    I would also like to extend our greetings to our ohana from 
the north and to our ohana across the other 48 States of this 
Nation. And of course, aloha to Representative Case, 
Faleomavaega, Governor Lingle, Chairman Kane, and all those who 
come in support of Federal recognition for Native Hawaiians.
    I am Trustee Haunani Apoliona, chairperson of the Board of 
Trustees of the Office of Hawaiian Affairs. I am pleased to 
highlight briefly some points made in the full text of my 
testimony, and I ask that the official record of these 
proceedings reflect my complete testimony submitted earlier.
    Before I proceed any further, Senator, you were gracious 
enough to introduce our Trustees and our Board Counsel, Robert 
Klein and Charles Rose, president of the Association of 
Hawaiian Civic Clubs. I would also like to take a moment to 
introduce our staff who have traveled with us from Hawaii--
Clyde Namu'o, our administrator, his administrative staff, Nani 
Lee, the woman who sealed the vote with the chairman of this 
committee; and Peter Yee. And also to introduce finally our 
staff from the Office of Hawaiian Affairs who has just recently 
helped us to establish our Washington, DC bureau here at 
Connecticut Avenue, partnering with the National Congress of 
American Indians, and that is our staff of the Washington, DC 
bureau of the Office of Hawaiian Affairs, Martha Ross.
    Let me begin my comments as is customary by addressing you 
in our traditional language.
    E na alaka`i a me na lala o keia Komike o na Kuleana 
`ilikini o ka `Aha`olelo Nui o `Amelika Hui Pu `ia, aloha mai 
kakou. He loa ke ala i hele `ia e makou, na `oiwi `olino o 
Hawai`i, a he ala i hehi mua `ia e na ali`i o makou, e la`a, o 
ka Mo`i Kalakaua, ke Kamali`iwahine Ka`iulani a me ka 
mo`iwahine hope o ke Aupuni Mo`i Hawai`i, o ia ko makou ali`i i 
aloha nui `ia, o Lil`uokalani. A he nui no ho`i na Hawai`i, 
kunou mai ai i mua o oukou e nana pono mai i ke kulana o ka 
oiwi Hawai`i, kona nohona, kona olakino, ka ho`ona`auao a pela 
wale aku.
    Ua pono ka helena hou a makou nei a loa`a ka pono o ka 
`aina, ke kulaiwi pa`a mau o ka lahui `oiwi o Hawai`i pae`aina, 
o ia wale no ka Hawai`i. No laila, eia hou no ka oiwi `olino 
Hawai`i he alo a he alo, me ka `Aha`olelo Nui.
    To the leaders and members of this Committee on Indian 
Affairs of the U.S. Congress, greetings. Long has been the road 
traveled here by Native Hawaiians who dearly embrace wisdom and 
justice. Indeed, a path tread upon by such royal nobility of 
our past such as King Kalakaua, Princess Ka'iulani and our 
beloved last ruler of the Hawaiian Kingdom, Queen 
Lili'uokalani. And still countless other Native Hawaiians who 
have humbled themselves before this body for your consideration 
on such critical Native issues as housing, health, education.
    Again, we come before you urging consideration and 
affirming the rights of Native Hawaiians as the sole indigenous 
people of our ancient homeland, Hawaii. We come together again 
face to face, Native Hawaiians and the Congress of the United 
States of America.
    The United States has a unique legal and political 
relationship with the indigenous people of Hawaii, and that 
relationship is embodied in a myriad of history, treaties, 
statutes, Executive orders and court decisions. Once again, the 
congressional delegation from the State of Hawaii seeks, with 
the assistance of many of their colleagues, to achieve a formal 
recognition of the special status the indigenous people of 
Hawaii have in the fabric of American political relationships.
    The Office of Hawaiian Affairs supports therefore the 
intent and framework of S. 344, and its companion in the House 
of Representatives, H.R. 665. As stated in our more complete 
testimony, I would like to testify a few of the points made.
    First, the relationship between the United States and the 
State of Hawaii and Native Hawaiian people is a matter of 
written record. Congress itself provided a factual account of 
the illegal overthrow of 1893, and the annexation of 1898, in 
the Apology Bill, Public Law 103-150, passed in 1993. We have 
in our testimony provided additional history, cultural 
insights, and legal citations for your consideration.
    Reconciliation, described as a desired outcome of the 
passage of Public Law 103-150, and recognition for Native 
Hawaiians recommended in the October 23, 2000 joint report of 
the Department of the Interior and Department of Justice 
entitled Mauka to Makai: The River of Justice Must Flow Freely. 
Thus far, the recommendations have been denied Native 
Hawaiians.
    Our centuries-old culture, society, history, language, 
relationships and spiritual traditions flourished in the 
Hawaiian archipelago before the first Western contact, and live 
on today despite over two centuries of contact with the West, 
despite more than a century of domination by an alien culture, 
and despite the threat of assimilation and cultural genocide. 
Our traditional practices recognized by the State of Hawaii 
deserve recognition and protection from the Federal Government 
as well.
    The inseparable connectedness between Native Hawaiians and 
our natural environment, the land, ocean, plant and animal 
life, goes far beyond the Western ideology of a market economy. 
A ancient cosmogonic chant of creation known as the Kumulipo or 
``source from the dark'' teaches the sibling relationship of 
all forms of life in the universe. This relates directly to our 
interconnectedness and interdependence with the land and our 
concept of malama aina, or care for the land.
    Hawaiian recognition is about fairness and justice. The 
right of self determination has been extended to the indigenous 
people of every State in this union, save one, Hawaii and the 
Hawaiians. S. 344 and its House companion, H.R. 665 are 
initial, but significant steps on the path toward reconciling 
historic wrongs to Hawaiians, and advancing Hawaiians through 
Federal recognition toward a political relationship with the 
United States of America.
    While Hawaiian ali`i, monarchs such as Queen Lili'uokalani, 
worked nearly alone in trying to gain the attention of 
congressional leaders in the 19th century in pursuit of 
reconciling the history of our people, Native Hawaiians in the 
21st century are joined by other citizens and indigenous people 
in this country who stand with us in our pursuit of Federal 
recognition and reconciliation. For this, we are grateful.
    Indeed, we do not stand alone. We stand with the two other 
indigenous peoples of America and we appreciate their support. 
Federal policy on self-determination and self-governance 
currently extends to Alaska Natives and American Indians. 
Native Hawaiians, the third indigenous people in these 50 
States, seek parity in inclusion.
    No laila, eia makou ma ka palena pau o keia noi ha`aha`a a 
ha`aheo, e ho`olohe mai a e nana mai i ka `ike a me ka maopopo 
pono o kulana `oiwi o ka Hawai`i i kona `aina kulaiwi mai ke au 
kahiko loa a ka wa pau `ole. He pono keia `olelo i mua o `oukou 
i `olelo i `oleo `ia me ka ikaika a me ka mana a me ke aloha o 
na kupuna i hala, na Hawai`i he lehu o keia au a me na hanauna 
e puka a'e ana no. Mahalo nui, ke aloha no.
    Therefore, as I approach the conclusion of this humble, yet 
cherished testimony, I ask that you listen and look upon us 
with wisdom and understanding on the status of the Native 
Hawaiians in our ancient homeland.
    What is said to you is offered in truth and is uttered with 
the strength and power and love of our forebears, our 
ancestors, our nearly 400,000 Native Hawaiians in Hawaii and on 
the continent, and generations hence.
    We appreciate the opportunity to present this testimony, 
and we ask for your positive consideration of S. 344.
    Mahalo.
    [Prepared statement of Ms. Apoliona appears in appendix.]
    Senator Inouye. I thank you very much, Chair Apoliona. I am 
certain all of us realize, as Chairman Campbell indicated, that 
the measure before us is the result of seven hearings. One of 
those hearings was held in August 2000 in Hawaii, and lasted 
for 5 days. I am certain some of you recall that hundreds of 
Native Hawaiians presented testimony, both oral and written.
    We are hoping that this measure, with amendments if such be 
necessary, will soon be forwarded to the executive for his 
signature. This is an important measure, and as a result we 
will keep the record open until March 20. If any of you wish to 
review your testimony and make addendums; if any of you wish to 
correct your statements, please feel free to do so. If there 
are those who wish to submit statements, you are free to do so, 
but we would like to receive them before March 20.
    There are several milestones that have had some important 
impacts upon the Native people of Hawaii. The first was in 1778 
when the Western world came to Hawaii with the so-called 
discovery of the islands by Captain Cook. Next, was the 
overthrow of Queen Lili'uokalani in January 1893. History shows 
that this was done with the cooperation of the minister of the 
United States and the use of the U.S. Marines.
    Then in 1921, the Hawaiian Homes Commission Act became law, 
thereby officially recognizing that there was a special 
relationship between the United States and the Native people of 
Hawaii. On August 21, 1959, came Statehood, but even with 
Statehood that relationship continued. On November 23, 1993, 
the apology resolution was enacted into law.
    The last milestone, the most important, will be the one 
that is incorporated in this measure. I believe that though it 
may have been a long path, as you have pointed out, Chairperson 
Apoliona, it will become a reality. I look forward to working 
with you and Governor Lingle and with all of you assembled 
here. Senator Akaka and I pledge to you our full support and we 
are certain that this time we will make it, because we have no 
other option. If we do not make it, it will be disaster for the 
Hawaiian homesteaders and for all the many programs that we 
have, whether it be in education, health or housing. This is a 
must.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mahalo for your testimony, Chairman Apoliona. I also want 
to welcome the other trustees who are here and were introduced 
by the chairman. I also want to welcome Clyde Namu`o of your 
staff, Nani Lee, and Peter Yee, and also Justice Klein, who are 
with you this morning, and the DC Bureau Chief, Martha Ross.
    I also want to say mahalo for coming and welcome to our 
brothers and sisters the Alaska Natives--Julie Kitka and Willie 
Hensley, Oliver Levitt and Chris McNeil. Thank you folks so 
much for your strong support over the years. I want you to know 
that we appreciate it.
    Also, I see in the audience the friendly and great leader 
of our Association of Hawaiian Civic Clubs, Charlie Rose who is 
here with us. And others of you here, I want to say mahalo for 
coming and supporting us and supporting the passage of this 
bill.
    I also want to echo the chairman that we appreciate your 
support and we want to continue to work with you and we are 
certainly doing all we can to help Native Hawaiians and the 
people of Hawaii in reaching out and raising our levels of 
support, not only for Hawaii, but for our country and even the 
world.
    So mahalo nui loa. Thank you very much, Mr. Chairman.
    Senator Inouye. Chairperson Apoliona, I just have one 
question before we leave. I note the presence of Alaskan 
leaders here, and at this moment the National Congress of 
American Indians is having their national convention, and they 
send their regrets that they could not be here, otherwise they 
would have been here en masse.
    You have had a long relationship with Alaska Natives and 
American Indians. Why do you think Hawaiians enjoy such strong 
support from Alaska Natives and Native Americans?
    Ms. Apoliona. Having had the opportunity to actually be in 
this hearing room when we gathered as Native people in the 
middle of the year last year, in honor of our country and the 
contributions of our Native people, it became clearer to me 
then that the effort for Hawaiian recognition is truly a 
priority for Alaska Natives and American Indians because we are 
all indigenous people.
    It is sometimes far beyond words when we can reach into our 
own history and genealogy and know that we share the same 
values of family and protection of our environment and our 
respect for creative forces. We as indigenous people, Native 
Hawaiians, Alaska Natives, and American Indians, share that 
common tradition. It is that bond of spirit, and our spiritual 
traditions, that tie us.
    The expressions in my reflection of 2001 and opportunities 
since then have only underscored for me and all of us who have 
opportunities to work with our Alaska Natives and American 
Indians, that they are truly committed. Like in any family, we 
look to and care for the `ohana [extended family], and they 
look to and they are caring for us.
    This is an honor to be here, and to be in the presence of 
our Native leaders, for if they did not care and they did not 
feel and they did not honor our tradition, they would not be 
here. They are here and they bring us great honor by their 
presence.
    Mahalo.
    Senator Inouye. I thank you very much. As we all know, we 
are now in a very challenging moment in our lives. It has been 
said that at any moment we may be at war in Iraq, which reminds 
me that since World War II, in Korea, in Vietnam, in Desert 
Storm, on a basis of per capita representation, more Native 
Americans, including Hawaiians, have put on the uniform and 
placed themselves in harm's way on behalf of the people of the 
United States than any other ethnic group. I think we should 
always remember that, that the Natives of this land more 
eagerly volunteered to serve this country--a country that has 
not always been generous, that has not always been 
understanding, that has not always been sensitive to their 
needs.
    So with that, I would like to adjourn the hearing and thank 
all of you, the witnesses. Thank you very much.
    [Whereupon, at 11:05 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


    Prepared Statement of Micah Kane, Director, Hawaiian Home Lands

    Aloha mai kakou Chairman Campbell, Vice Chairman Inouye, Senator 
Akaka, and honorable members of the Senate Committee on Indian Affairs. 
My name is Micah Kane and I am the director of the State of Hawaii's 
Department of Hawaiian Home Lands. Mahalo for this opportunity to 
appear before you today to testify in support of S. 344, commonly known 
as the Akaka bill.
    The Department of Hawaiian Home Lands is the agency within our 
State government that administers the Federal trust lands created by 
Congress more than 80 years ago under the Hawaiian Homes Commission Act 
of 1920. This act set aside more than 200,000 acres of land for use by 
Native Hawaiians. Currently, over 20,000 Native Hawaiians live on these 
lands, in more than 30 different communities, on almost every island in 
the state. An even larger number of qualifying Native Hawaiians remain 
on a waiting list--hoping for their opportunity for home ownership and 
land stewardship.
    With me today, are Uncle Tony Sang, the chairman of the State 
Council of Hawaiian Homestead Associations [SCHRA] and Robin Danner, 
his vice chairman. These two individuals represent and work daily on 
behalf of real people, in real communities, and they do it very well. 
They are just the tip of the iceberg. There are many more Native 
Hawaiians who selflessly work for the betterment of our people.
    My remarks today will focus on just three [3] issues. First--where 
the support for this bill is coming from. Second--the economic 
realities of this measure. And third--the practical reasoning which 
supports the passage of this bill.
    First, there is broad and deep support from Hawaiian and Non-
Hawaiian communities alike, and Republican and Democrat party lines. 
Our entire congressional delegation supports this measure and Governor 
Lingle has made its passage a major objective of her administration. It 
also is backed by resolutions passed by the Hawaii State Legislature, 
the National American Indian Housing Council, the National Congress of 
American Indians, and the Alaska Federation of Natives, and it has been 
included in the national and Hawaii platforms for the Republican and 
Democratic parties. Most importantly to me, the homestead communities 
to which I am accountable also support this measure. In short, the 
Akaka bill is supported by the people most directly affected by it, and 
also by people with no vested or common interests other than a desire 
to see justice done.
    Second, the Akaka bill would eliminate legal problems and 
uncertainties that have adversely affected the Hawaii economy. These 
troubling and unsettled issues relate to property title, ceded land 
claims, and rights to natural resources. Without Federal recognition of 
Native Hawaiians, the State of Hawaii will spend thousands of 
unnecessary man-hours and millions of taxpayer dollars defending and 
clarifying Native Hawaiian rights. Enactment of the Akaka bill would 
bring closure and allow our state to move forward.
    Third, the Akaka bill simply completes a journey that Congress 
began many years ago. There are over 150 statutes passed by Congress 
which address the conditions and lives of Native Hawaiians. The goal 
has been to redress past wrongs and to empower self-help. I would 
humbly submit that passage of this bill rightfully extends the 
successes of our country's era of self-determination for its native 
peoples to Native Hawaiians. It would allow us to control our destiny 
as a native people and thus to participate more fully and more proudly 
as Americans.
    In closing, I would like to thank Senator Inouye, Senator Akaka, 
and the rest of Hawaii's Congressional Delegation for their long-
standing commitment to the fight for self-determination for the 
Hawaiian people. I would also like to acknowledge the efforts and 
leadership of all Hawaiian organizations, including the Office of 
Hawaiian Affairs, who continue to dedicate themselves and to persevere 
in their work to achieve the goal of Federal Recognition.
    I also want to publicly thank Governor Lingle for including so many 
Native Hawaiians in her administration. By doing so, she has empowered 
and challenged us to use our talents to improve the lives of all the 
people of Hawaii. We are humbled by the trust she has placed in us, and 
we fully recognize the responsibility that comes with the opportunity 
to serve others.
    And finally, I thank you, the members of the Senate Committee on 
Indian Affairs, for your past and present efforts in ensuring that the 
profound American notions ofjustice, fairness, and equality are not 
only spoken to Native Hawaiians, but are preserved and brought to life 
for us. Once again, mahalo nui loa.
                                 ______
                                 

          Prepared Statement of Linda Lingle, Governor, Hawaii

    Good Morning Chairman Campbell, Vice Chairman Inouye, and members 
of the Senate Committee on Indian Affairs. Thank you for inviting me to 
appear before you. For the record, I am Linda Lingle, Governor of the 
great State of Hawaii, and I am honored to be here.
    I come before you today to express my support for passage of the 
Native Hawaiian Federal Recognition Bill, which is known throughout 
Hawaii as the Akaka bill. My administration and both houses of the 
Hawaii State Legislature believe this is the right thing to do--for 
Native Hawaiians, for the State of Hawaii, and for the United States.
    Native Hawaiians are an important constituency in our State for 
many reasons. The Native Hawaiian culture is the foundation of the 
character of the State of Hawaii, and the basis for common 
understanding among our varied ethnic populations. Our very identity as 
a State is founded on Native Hawaiian values, cultural practices and 
knowledge. Their willingness to share that knowledge and understanding 
has enriched all who call Hawaii home. We have learned much from Native 
Hawaiians, and have much more to learn.
    As a Republican Governor, I am happy to be working in close harmony 
with our Hawaii Democratic Congressional Delegation on this critically 
important issue. Senator Inouye, Senator Akaka, Representative Case, 
and Representative Abercrombie stand united in their support, and I 
proudly stand with them, along with the Hawaii State Legislature.
    We recognize that there will be differences of opinion in our 
approaches to many of the challenges we face, but we also recognize the 
value of aloha and working in a bi-partisan manner to resolve issues of 
great importance to the people of our state. The people of Hawaii have 
voiced their support on this issue in many ways. For example, both 
Republicans and Democrats in Hawaii have supported Federal recognition 
for Native Hawaiians in party platforms.
    We are united in asking Congress to pass the Akaka bill into law, 
thereby reaffirming the political relationship between the United 
States and the Indigenous people of Hawaii. This bill is vital to the 
survival of the Native Hawaiian people; it is vital to the continued 
character of our State; and it is vital to providing parity and 
consistency in Federal policy for all Native peoples in America.
    As public-policymakers, all of us in this room believe deeply in 
the goodness of our great country, and in the strength of its 
democratic ideals.
    America's Indigenous Peoples are America's First Peoples, and 
American Indians of the 48 States, Alaska Natives of the 49th State, 
and Native Hawaiians of the 50th State have demonstrated their love for 
this country and made contributions that all U.S. citizens can be proud 
of Indeed, our Federal Government owes our First Citizens a great debt 
of gratitude.
    We policymakers owe it to ourselves to live up to the promise and 
power of Democracy and Justice for All, and to continue our journey by 
recognizing the inherent rights of the Indigenous Peoples of our 
country.
    There have been many eras of Federal policy toward Native Peoples 
over the centuries--none so promising as the current one of self-
determination and self-governance that has already been extended to 
American Indians and Alaska Natives.
    It is time to set a new course in Hawaii. Specifically, it is time 
to extend this Federal policy of self-determination and self-governance 
to the Native Hawaiian people.
    The people of Hawaii respectfully submit that simple justice 
requires that Native Hawaiians be empowered to determine their own 
future by employing their own solutions. I am confident that they will 
rise to the challenge.
    I have found an abundance of talent, energy, and a love of 
democracy among members of the Native Hawaiian community, including 
many who serve in my administration. Bob Awana is my chief of staff and 
Micah Kane heads the Department of Hawaiian Home Lands. Dr. Chiyome 
Fukino left a successful medical practice to serve the larger community 
of Hawaii as Director of the Department of Health. Georgina Kawamura 
serves as our Director of Budget and Finance. Rick Bissen runs the 
attorney general's office as first deputy, and Kathy Watanabe heads our 
Department of Human Resources and Development. James Aiona is Hawaii's 
Lieutenant Governor. These are just the most visible of many Native 
Hawaiians who serve the people of Hawaii as members of my 
administration. They serve with competence, passion and vitality.
    Many of you have worked with our Native Hawaiian Senator Daniel 
Akaka for a number of years. You know him by his Aloha, by his gentle 
spirit, and by his commitment to these United States. Like the 
individuals in my administration that I have named, Senator Akaka knows 
what it means to be Native Hawaiian, to be from Hawaii, and to be an 
American.
    Like all Native peoples around the country, these individuals have 
embraced the promise of our democracy and now use their unique 
knowledge of our islands, and of its diverse people, to serve the 
public--and in doing so they do not give up what it means to be Native 
Hawaiian. They do not and have not abandoned their collective rights as 
Native Hawaiians to be self-governing and to practice and perpetuate a 
cultural heritage whose home is only found in one tiny part of our 
world, the Hawaiian Islands. Despite the historical events and policies 
that worked against them, Native Hawaiians have an unbroken desire for 
self-governance as a means of perpetuating their way of life and their 
culture, for future generations.
    Passage of the Akaka bill will provide Native Hawaiians with an 
opportunity owed to them for many years--the right to engage their best 
talents and best ideas as full partners of the State and Federal 
Governments. Passage of this bill holds great promise for Native 
Hawaiians, and it holds great promise for our State and all its 
citizens. My administration believes that what is just and good for 
Native Hawaiians is just and good for all our people.
    There have been concerns shared with me about what this bill might 
lead to--like gambling, or creating a divide among peoples in my State. 
Nothing could be further from the truth.
    I do not support gambling in Hawaii; Native Hawaiians have not 
collectively enunciated a desire for legalized gambling; and this bill 
does nothing to permit it. The State of Hawaii controls whether or not 
there will be gambling in Hawaii. This is true today and it would be 
true after enactment of this bill.
    This bill would not divide the people of Hawaii. To the contrary, 
by doing what is right for Native Hawaiians, passage of the Akaka bill 
would enable all the peoples of Hawaii to move forward and reach our 
potential together.
    How, I ask you, can providing justice for long-standing wrongs ever 
be divisive? The underlying principles of our country tell us that 
justice and a recognition of rights--personal and collective--is the 
very definition of our unity. Our State motto--Ua mau ke `ea o ka `aina 
i ka pono, the life of the land is perpetuated in righteousness--says 
it well.
    The life of Hawaii and unity of its diverse peoples are perpetuated 
by doing what is right.
    The Native Hawaiian Federal Recognition Bill brings parity and 
consistency to our Federal policies on America's Indigenous People. The 
Native Hawaiian people of my State deserve nothing less. This bill 
provides a process that has not existed before, for the Hawaiian people 
to take hold of their destiny and to have a rightful place at the table 
in making decisions for themselves. I have every confidence that if 
this opportunity is granted to them, Native Hawaiians will find within 
their community an approach that works for themselves, for our State, 
and for this Nation.
    Members of the committee, I urge you to pass the Native Hawaiian 
Recognition Bill out of your committee and to urge your colleagues in 
the full Senate to pass this bill without hesitation. In doing so, you 
will recognize the contributions of Native Hawaiians and the value of 
their continued and enhanced vitality to my State and our Nation.
    In doing so, you also will recognize what is righteous, what is 
practical, and what is just.
    Mahalo and Thank You.

    [GRAPHIC] [TIFF OMITTED] T5424.001
    
    [GRAPHIC] [TIFF OMITTED] T5424.002
    
    [GRAPHIC] [TIFF OMITTED] T5424.003
    
    [GRAPHIC] [TIFF OMITTED] T5424.004
    
    [GRAPHIC] [TIFF OMITTED] T5424.005
    
    [GRAPHIC] [TIFF OMITTED] T5424.006
    
    [GRAPHIC] [TIFF OMITTED] T5424.007
    
    [GRAPHIC] [TIFF OMITTED] T5424.008
    
    [GRAPHIC] [TIFF OMITTED] T5424.009
    
    [GRAPHIC] [TIFF OMITTED] T5424.010
    
    [GRAPHIC] [TIFF OMITTED] T5424.011
    
    [GRAPHIC] [TIFF OMITTED] T5424.012
    
    [GRAPHIC] [TIFF OMITTED] T5424.013
    
    [GRAPHIC] [TIFF OMITTED] T5424.014
    
    [GRAPHIC] [TIFF OMITTED] T5424.015
    
    [GRAPHIC] [TIFF OMITTED] T5424.016
    
    [GRAPHIC] [TIFF OMITTED] T5424.017
    
    [GRAPHIC] [TIFF OMITTED] T5424.018
    
    [GRAPHIC] [TIFF OMITTED] T5424.019
    
    [GRAPHIC] [TIFF OMITTED] T5424.020
    
    [GRAPHIC] [TIFF OMITTED] T5424.021
    
    [GRAPHIC] [TIFF OMITTED] T5424.022
    
    [GRAPHIC] [TIFF OMITTED] T5424.023
    
    [GRAPHIC] [TIFF OMITTED] T5424.024
    
    [GRAPHIC] [TIFF OMITTED] T5424.025
    
    [GRAPHIC] [TIFF OMITTED] T5424.026
    
    [GRAPHIC] [TIFF OMITTED] T5424.027
    
    [GRAPHIC] [TIFF OMITTED] T5424.028
    
    [GRAPHIC] [TIFF OMITTED] T5424.029
    
    [GRAPHIC] [TIFF OMITTED] T5424.030
    
    [GRAPHIC] [TIFF OMITTED] T5424.031
    
    [GRAPHIC] [TIFF OMITTED] T5424.032
    
    [GRAPHIC] [TIFF OMITTED] T5424.033
    
    [GRAPHIC] [TIFF OMITTED] T5424.034
    
    [GRAPHIC] [TIFF OMITTED] T5424.035
    
    [GRAPHIC] [TIFF OMITTED] T5424.036
    
    [GRAPHIC] [TIFF OMITTED] T5424.037
    
    [GRAPHIC] [TIFF OMITTED] T5424.038
    
    [GRAPHIC] [TIFF OMITTED] T5424.039
    
    [GRAPHIC] [TIFF OMITTED] T5424.040
    
    [GRAPHIC] [TIFF OMITTED] T5424.041
    
    [GRAPHIC] [TIFF OMITTED] T5424.042
    
    [GRAPHIC] [TIFF OMITTED] T5424.043
    
    [GRAPHIC] [TIFF OMITTED] T5424.044
    
    [GRAPHIC] [TIFF OMITTED] T5424.045
    
    [GRAPHIC] [TIFF OMITTED] T5424.046
    
    [GRAPHIC] [TIFF OMITTED] T5424.047
    
    [GRAPHIC] [TIFF OMITTED] T5424.048
    
    [GRAPHIC] [TIFF OMITTED] T5424.049
    
    [GRAPHIC] [TIFF OMITTED] T5424.050
    
    [GRAPHIC] [TIFF OMITTED] T5424.051
    
    [GRAPHIC] [TIFF OMITTED] T5424.052
    
    [GRAPHIC] [TIFF OMITTED] T5424.053
    
    [GRAPHIC] [TIFF OMITTED] T5424.054
    
    [GRAPHIC] [TIFF OMITTED] T5424.055
    
    [GRAPHIC] [TIFF OMITTED] T5424.056
    
    [GRAPHIC] [TIFF OMITTED] T5424.057
    
    [GRAPHIC] [TIFF OMITTED] T5424.058
    
    [GRAPHIC] [TIFF OMITTED] T5424.059
    
    [GRAPHIC] [TIFF OMITTED] T5424.060
    
    [GRAPHIC] [TIFF OMITTED] T5424.061
    
    [GRAPHIC] [TIFF OMITTED] T5424.062
    
    [GRAPHIC] [TIFF OMITTED] T5424.063
    
    [GRAPHIC] [TIFF OMITTED] T5424.064
    
    [GRAPHIC] [TIFF OMITTED] T5424.065
    
    [GRAPHIC] [TIFF OMITTED] T5424.066
    
    [GRAPHIC] [TIFF OMITTED] T5424.067
    
    [GRAPHIC] [TIFF OMITTED] T5424.068
    
    [GRAPHIC] [TIFF OMITTED] T5424.069
    
    [GRAPHIC] [TIFF OMITTED] T5424.070
    
    [GRAPHIC] [TIFF OMITTED] T5424.071
    
    [GRAPHIC] [TIFF OMITTED] T5424.072
    
    [GRAPHIC] [TIFF OMITTED] T5424.073
    
    [GRAPHIC] [TIFF OMITTED] T5424.074
    
    [GRAPHIC] [TIFF OMITTED] T5424.075
    
    [GRAPHIC] [TIFF OMITTED] T5424.076
    
    [GRAPHIC] [TIFF OMITTED] T5424.077
    
    [GRAPHIC] [TIFF OMITTED] T5424.078
    
    [GRAPHIC] [TIFF OMITTED] T5424.079
    
    [GRAPHIC] [TIFF OMITTED] T5424.080
    
    [GRAPHIC] [TIFF OMITTED] T5424.081
    
    [GRAPHIC] [TIFF OMITTED] T5424.082
    
    [GRAPHIC] [TIFF OMITTED] T5424.083
    
    [GRAPHIC] [TIFF OMITTED] T5424.084
    
    [GRAPHIC] [TIFF OMITTED] T5424.085
    
    [GRAPHIC] [TIFF OMITTED] T5424.086
    
    [GRAPHIC] [TIFF OMITTED] T5424.087
    
    [GRAPHIC] [TIFF OMITTED] T5424.088
    
    [GRAPHIC] [TIFF OMITTED] T5424.089
    
    [GRAPHIC] [TIFF OMITTED] T5424.090
    
    [GRAPHIC] [TIFF OMITTED] T5424.091
    
    [GRAPHIC] [TIFF OMITTED] T5424.092
    
    [GRAPHIC] [TIFF OMITTED] T5424.093
    
    [GRAPHIC] [TIFF OMITTED] T5424.094
    
    [GRAPHIC] [TIFF OMITTED] T5424.095
    
    [GRAPHIC] [TIFF OMITTED] T5424.096
    
    [GRAPHIC] [TIFF OMITTED] T5424.097
    
    [GRAPHIC] [TIFF OMITTED] T5424.098
    
    [GRAPHIC] [TIFF OMITTED] T5424.099
    
    [GRAPHIC] [TIFF OMITTED] T5424.100
    
    [GRAPHIC] [TIFF OMITTED] T5424.101
    
    [GRAPHIC] [TIFF OMITTED] T5424.102
    
    [GRAPHIC] [TIFF OMITTED] T5424.103
    
    [GRAPHIC] [TIFF OMITTED] T5424.104
    
    [GRAPHIC] [TIFF OMITTED] T5424.105
    
    [GRAPHIC] [TIFF OMITTED] T5424.106
    
    [GRAPHIC] [TIFF OMITTED] T5424.107
    
    [GRAPHIC] [TIFF OMITTED] T5424.108
    
    [GRAPHIC] [TIFF OMITTED] T5424.109
    
    [GRAPHIC] [TIFF OMITTED] T5424.110
    
    [GRAPHIC] [TIFF OMITTED] T5424.111
    
    [GRAPHIC] [TIFF OMITTED] T5424.112
    
    [GRAPHIC] [TIFF OMITTED] T5424.113
    
    [GRAPHIC] [TIFF OMITTED] T5424.114
    
    [GRAPHIC] [TIFF OMITTED] T5424.115
    
    [GRAPHIC] [TIFF OMITTED] T5424.116
    
    [GRAPHIC] [TIFF OMITTED] T5424.117
    
    [GRAPHIC] [TIFF OMITTED] T5424.118
    
    [GRAPHIC] [TIFF OMITTED] T5424.119
    
    [GRAPHIC] [TIFF OMITTED] T5424.120
    
    [GRAPHIC] [TIFF OMITTED] T5424.121
    
    [GRAPHIC] [TIFF OMITTED] T5424.122
    
    [GRAPHIC] [TIFF OMITTED] T5424.123
    
    [GRAPHIC] [TIFF OMITTED] T5424.124
    
    [GRAPHIC] [TIFF OMITTED] T5424.125
    
    [GRAPHIC] [TIFF OMITTED] T5424.126
    
    [GRAPHIC] [TIFF OMITTED] T5424.127
    
    [GRAPHIC] [TIFF OMITTED] T5424.128
    
    [GRAPHIC] [TIFF OMITTED] T5424.129
    
    [GRAPHIC] [TIFF OMITTED] T5424.130
    
    [GRAPHIC] [TIFF OMITTED] T5424.131
    
    [GRAPHIC] [TIFF OMITTED] T5424.132
    
    [GRAPHIC] [TIFF OMITTED] T5424.133
    
    [GRAPHIC] [TIFF OMITTED] T5424.134
    
    [GRAPHIC] [TIFF OMITTED] T5424.135
    
    [GRAPHIC] [TIFF OMITTED] T5424.136
    
    [GRAPHIC] [TIFF OMITTED] T5424.137
    
    [GRAPHIC] [TIFF OMITTED] T5424.138
    
    [GRAPHIC] [TIFF OMITTED] T5424.139
    
    [GRAPHIC] [TIFF OMITTED] T5424.140
    
    [GRAPHIC] [TIFF OMITTED] T5424.141
    
    [GRAPHIC] [TIFF OMITTED] T5424.142
    
    [GRAPHIC] [TIFF OMITTED] T5424.143
    
    [GRAPHIC] [TIFF OMITTED] T5424.144
    
    [GRAPHIC] [TIFF OMITTED] T5424.145
    
    [GRAPHIC] [TIFF OMITTED] T5424.146
    
    [GRAPHIC] [TIFF OMITTED] T5424.147
    
    [GRAPHIC] [TIFF OMITTED] T5424.148
    
    [GRAPHIC] [TIFF OMITTED] T5424.149
    
    [GRAPHIC] [TIFF OMITTED] T5424.150
    
    [GRAPHIC] [TIFF OMITTED] T5424.151
    
    [GRAPHIC] [TIFF OMITTED] T5424.152
    
    [GRAPHIC] [TIFF OMITTED] T5424.153
    
    [GRAPHIC] [TIFF OMITTED] T5424.154
    
    [GRAPHIC] [TIFF OMITTED] T5424.155
    
    [GRAPHIC] [TIFF OMITTED] T5424.156
    
    [GRAPHIC] [TIFF OMITTED] T5424.157
    
    [GRAPHIC] [TIFF OMITTED] T5424.158
    
    [GRAPHIC] [TIFF OMITTED] T5424.159
    
    [GRAPHIC] [TIFF OMITTED] T5424.160
    
    [GRAPHIC] [TIFF OMITTED] T5424.161
    
    [GRAPHIC] [TIFF OMITTED] T5424.162
    
    [GRAPHIC] [TIFF OMITTED] T5424.163
    
    [GRAPHIC] [TIFF OMITTED] T5424.164
    
    [GRAPHIC] [TIFF OMITTED] T5424.165
    
    [GRAPHIC] [TIFF OMITTED] T5424.166
    
    [GRAPHIC] [TIFF OMITTED] T5424.167
    
    [GRAPHIC] [TIFF OMITTED] T5424.168
    
    [GRAPHIC] [TIFF OMITTED] T5424.169
    
    [GRAPHIC] [TIFF OMITTED] T5424.170
    
    [GRAPHIC] [TIFF OMITTED] T5424.171
    
    [GRAPHIC] [TIFF OMITTED] T5424.172
    
    [GRAPHIC] [TIFF OMITTED] T5424.173
    
    [GRAPHIC] [TIFF OMITTED] T5424.174
    
    [GRAPHIC] [TIFF OMITTED] T5424.175
    
    [GRAPHIC] [TIFF OMITTED] T5424.176
    
    [GRAPHIC] [TIFF OMITTED] T5424.177
    
    [GRAPHIC] [TIFF OMITTED] T5424.178
    
    [GRAPHIC] [TIFF OMITTED] T5424.179
    
    [GRAPHIC] [TIFF OMITTED] T5424.180
    
    [GRAPHIC] [TIFF OMITTED] T5424.181
    
    [GRAPHIC] [TIFF OMITTED] T5424.182
    
    [GRAPHIC] [TIFF OMITTED] T5424.183
    
    [GRAPHIC] [TIFF OMITTED] T5424.184
    
    [GRAPHIC] [TIFF OMITTED] T5424.185
    
    [GRAPHIC] [TIFF OMITTED] T5424.186
    
    [GRAPHIC] [TIFF OMITTED] T5424.187
    
    [GRAPHIC] [TIFF OMITTED] T5424.188
    
    [GRAPHIC] [TIFF OMITTED] T5424.189
    
    [GRAPHIC] [TIFF OMITTED] T5424.190
    
    [GRAPHIC] [TIFF OMITTED] T5424.191
    
    [GRAPHIC] [TIFF OMITTED] T5424.192
    
    [GRAPHIC] [TIFF OMITTED] T5424.193
    
    [GRAPHIC] [TIFF OMITTED] T5424.194
    
    [GRAPHIC] [TIFF OMITTED] T5424.195
    
    [GRAPHIC] [TIFF OMITTED] T5424.196
    
    [GRAPHIC] [TIFF OMITTED] T5424.197
    
    [GRAPHIC] [TIFF OMITTED] T5424.198
    
    [GRAPHIC] [TIFF OMITTED] T5424.199
    
    [GRAPHIC] [TIFF OMITTED] T5424.200
    
    [GRAPHIC] [TIFF OMITTED] T5424.201
    
    [GRAPHIC] [TIFF OMITTED] T5424.202
    
    [GRAPHIC] [TIFF OMITTED] T5424.203
    
    [GRAPHIC] [TIFF OMITTED] T5424.204
    
    [GRAPHIC] [TIFF OMITTED] T5424.205
    
    [GRAPHIC] [TIFF OMITTED] T5424.206
    
    [GRAPHIC] [TIFF OMITTED] T5424.207
    
    [GRAPHIC] [TIFF OMITTED] T5424.208
    
    [GRAPHIC] [TIFF OMITTED] T5424.209
    
    [GRAPHIC] [TIFF OMITTED] T5424.210
    
    [GRAPHIC] [TIFF OMITTED] T5424.211
    
    [GRAPHIC] [TIFF OMITTED] T5424.212
    
    [GRAPHIC] [TIFF OMITTED] T5424.213
    
    [GRAPHIC] [TIFF OMITTED] T5424.214
    
    [GRAPHIC] [TIFF OMITTED] T5424.215
    
    [GRAPHIC] [TIFF OMITTED] T5424.216
    
    [GRAPHIC] [TIFF OMITTED] T5424.217
    
    [GRAPHIC] [TIFF OMITTED] T5424.218
    
    [GRAPHIC] [TIFF OMITTED] T5424.219
    
    [GRAPHIC] [TIFF OMITTED] T5424.220
    
    [GRAPHIC] [TIFF OMITTED] T5424.221
    
    [GRAPHIC] [TIFF OMITTED] T5424.222
    
    [GRAPHIC] [TIFF OMITTED] T5424.223
    
    [GRAPHIC] [TIFF OMITTED] T5424.224
    
    [GRAPHIC] [TIFF OMITTED] T5424.225
    
    [GRAPHIC] [TIFF OMITTED] T5424.226
    
    [GRAPHIC] [TIFF OMITTED] T5424.227
    
    [GRAPHIC] [TIFF OMITTED] T5424.228
    
    [GRAPHIC] [TIFF OMITTED] T5424.229
    
    [GRAPHIC] [TIFF OMITTED] T5424.230
    
    [GRAPHIC] [TIFF OMITTED] T5424.231
    
    [GRAPHIC] [TIFF OMITTED] T5424.232
    
    [GRAPHIC] [TIFF OMITTED] T5424.233
    
    [GRAPHIC] [TIFF OMITTED] T5424.234
    
    [GRAPHIC] [TIFF OMITTED] T5424.235
    
    [GRAPHIC] [TIFF OMITTED] T5424.236
    
    [GRAPHIC] [TIFF OMITTED] T5424.237
    
    [GRAPHIC] [TIFF OMITTED] T5424.238
    
    [GRAPHIC] [TIFF OMITTED] T5424.239
    
    [GRAPHIC] [TIFF OMITTED] T5424.240
    
    [GRAPHIC] [TIFF OMITTED] T5424.241
    
    [GRAPHIC] [TIFF OMITTED] T5424.242
    
    [GRAPHIC] [TIFF OMITTED] T5424.243
    
    [GRAPHIC] [TIFF OMITTED] T5424.244
    
    [GRAPHIC] [TIFF OMITTED] T5424.245
    
    [GRAPHIC] [TIFF OMITTED] T5424.246
    
    [GRAPHIC] [TIFF OMITTED] T5424.247
    
    [GRAPHIC] [TIFF OMITTED] T5424.248
    
    [GRAPHIC] [TIFF OMITTED] T5424.249
    
    [GRAPHIC] [TIFF OMITTED] T5424.250
    
    [GRAPHIC] [TIFF OMITTED] T5424.251
    
    [GRAPHIC] [TIFF OMITTED] T5424.252
    
    [GRAPHIC] [TIFF OMITTED] T5424.253
    
    [GRAPHIC] [TIFF OMITTED] T5424.254
    
    [GRAPHIC] [TIFF OMITTED] T5424.255
    
    [GRAPHIC] [TIFF OMITTED] T5424.256
    
    [GRAPHIC] [TIFF OMITTED] T5424.257
    
    [GRAPHIC] [TIFF OMITTED] T5424.258
    
    [GRAPHIC] [TIFF OMITTED] T5424.259
    
    [GRAPHIC] [TIFF OMITTED] T5424.260
    
    [GRAPHIC] [TIFF OMITTED] T5424.261
    
    [GRAPHIC] [TIFF OMITTED] T5424.262
    
    [GRAPHIC] [TIFF OMITTED] T5424.263
    
    [GRAPHIC] [TIFF OMITTED] T5424.264
    
    [GRAPHIC] [TIFF OMITTED] T5424.265
    
    [GRAPHIC] [TIFF OMITTED] T5424.266
    
    [GRAPHIC] [TIFF OMITTED] T5424.267
    
    [GRAPHIC] [TIFF OMITTED] T5424.268
    
    [GRAPHIC] [TIFF OMITTED] T5424.269
    
    [GRAPHIC] [TIFF OMITTED] T5424.270
    
    [GRAPHIC] [TIFF OMITTED] T5424.271
    
    [GRAPHIC] [TIFF OMITTED] T5424.272
    
    [GRAPHIC] [TIFF OMITTED] T5424.273
    
    [GRAPHIC] [TIFF OMITTED] T5424.274
    
    [GRAPHIC] [TIFF OMITTED] T5424.275
    
    [GRAPHIC] [TIFF OMITTED] T5424.276
    
    [GRAPHIC] [TIFF OMITTED] T5424.277
    
    [GRAPHIC] [TIFF OMITTED] T5424.278
    
    [GRAPHIC] [TIFF OMITTED] T5424.279
    
    [GRAPHIC] [TIFF OMITTED] T5424.280
    
    [GRAPHIC] [TIFF OMITTED] T5424.281
    
    [GRAPHIC] [TIFF OMITTED] T5424.282
    
    [GRAPHIC] [TIFF OMITTED] T5424.283
    
    [GRAPHIC] [TIFF OMITTED] T5424.284
    
    [GRAPHIC] [TIFF OMITTED] T5424.285
    
    [GRAPHIC] [TIFF OMITTED] T5424.286
    
    [GRAPHIC] [TIFF OMITTED] T5424.287
    
    [GRAPHIC] [TIFF OMITTED] T5424.288
    
    [GRAPHIC] [TIFF OMITTED] T5424.289
    
    [GRAPHIC] [TIFF OMITTED] T5424.290
    
    [GRAPHIC] [TIFF OMITTED] T5424.291
    
    [GRAPHIC] [TIFF OMITTED] T5424.292
    
    [GRAPHIC] [TIFF OMITTED] T5424.293
    
    [GRAPHIC] [TIFF OMITTED] T5424.294
    
    [GRAPHIC] [TIFF OMITTED] T5424.295
    
    [GRAPHIC] [TIFF OMITTED] T5424.296
    
    [GRAPHIC] [TIFF OMITTED] T5424.297
    
    [GRAPHIC] [TIFF OMITTED] T5424.298
    
    [GRAPHIC] [TIFF OMITTED] T5424.299
    
    [GRAPHIC] [TIFF OMITTED] T5424.300
    
    [GRAPHIC] [TIFF OMITTED] T5424.301
    
    [GRAPHIC] [TIFF OMITTED] T5424.302
    
    [GRAPHIC] [TIFF OMITTED] T5424.303
    
    [GRAPHIC] [TIFF OMITTED] T5424.304
    
    [GRAPHIC] [TIFF OMITTED] T5424.305
    
    [GRAPHIC] [TIFF OMITTED] T5424.306
    
    [GRAPHIC] [TIFF OMITTED] T5424.307
    
    [GRAPHIC] [TIFF OMITTED] T5424.308
    
    [GRAPHIC] [TIFF OMITTED] T5424.309
    
    [GRAPHIC] [TIFF OMITTED] T5424.310
    
    [GRAPHIC] [TIFF OMITTED] T5424.311
    
    [GRAPHIC] [TIFF OMITTED] T5424.312
    
    [GRAPHIC] [TIFF OMITTED] T5424.313
    
    [GRAPHIC] [TIFF OMITTED] T5424.314
    
    [GRAPHIC] [TIFF OMITTED] T5424.315
    
    [GRAPHIC] [TIFF OMITTED] T5424.316
    
    [GRAPHIC] [TIFF OMITTED] T5424.317
    
    [GRAPHIC] [TIFF OMITTED] T5424.318
    
    [GRAPHIC] [TIFF OMITTED] T5424.319
    
    [GRAPHIC] [TIFF OMITTED] T5424.320
    
    [GRAPHIC] [TIFF OMITTED] T5424.321
    
    [GRAPHIC] [TIFF OMITTED] T5424.322
    
    [GRAPHIC] [TIFF OMITTED] T5424.323
    
    [GRAPHIC] [TIFF OMITTED] T5424.324
    
    [GRAPHIC] [TIFF OMITTED] T5424.325
    
    [GRAPHIC] [TIFF OMITTED] T5424.326
    
    [GRAPHIC] [TIFF OMITTED] T5424.327
    
    [GRAPHIC] [TIFF OMITTED] T5424.328
    
    [GRAPHIC] [TIFF OMITTED] T5424.329
    
    [GRAPHIC] [TIFF OMITTED] T5424.330
    
    [GRAPHIC] [TIFF OMITTED] T5424.331
    
    [GRAPHIC] [TIFF OMITTED] T5424.332
    
    [GRAPHIC] [TIFF OMITTED] T5424.333
    
    [GRAPHIC] [TIFF OMITTED] T5424.334
    
    [GRAPHIC] [TIFF OMITTED] T5424.335
    
    [GRAPHIC] [TIFF OMITTED] T5424.336
    
    [GRAPHIC] [TIFF OMITTED] T5424.337
    
    [GRAPHIC] [TIFF OMITTED] T5424.338
    
    [GRAPHIC] [TIFF OMITTED] T5424.339
    
    [GRAPHIC] [TIFF OMITTED] T5424.340
    
    [GRAPHIC] [TIFF OMITTED] T5424.341
    
    [GRAPHIC] [TIFF OMITTED] T5424.342
    
    [GRAPHIC] [TIFF OMITTED] T5424.343
    
    [GRAPHIC] [TIFF OMITTED] T5424.344
    
    [GRAPHIC] [TIFF OMITTED] T5424.345
    
    [GRAPHIC] [TIFF OMITTED] T5424.346
    
    [GRAPHIC] [TIFF OMITTED] T5424.347
    
    [GRAPHIC] [TIFF OMITTED] T5424.348
    
    [GRAPHIC] [TIFF OMITTED] T5424.349
    
    [GRAPHIC] [TIFF OMITTED] T5424.350
    

</pre></body></html>
